Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 1 of 7
United States District Court
Southern District of Texas

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
UNITED STATES OF AMERICA
VS.
MANUEL DIAZ

October 16, 2018
David J. Bradley, Clerk

§
§
§ CRIMINAL ACTION NO. 2:18-CR-460
§
§

ORDER ON MOTION TO SUPPRESS
Before the Court is Defendant Manuel Diaz’s motion to suppress.

D.E. 17.

Defendant is charged by indictment with one count of distribution of child pornography
and one count of possession of child pornography. D.E. 9. The Government filed a
response (D.E. 23) and the Court held a hearing on the motion on September 5, 2018.
Both parties submitted additional briefing. D.E. 26; D.E. 27. For the following reasons,
the Court DENIES Defendant’s motion to suppress.
FACTS
On April 27, 2018, Manuel Diaz (Diaz) went to a Walgreens store in Corpus
Christi to print photos from his cell phone. Diaz asked a store clerk for help printing a
photo from his cell phone because it was not displaying on the photo terminal. Diaz
handed his phone to the store clerk. While the store clerk scrolled through his phone to
locate the photo to be printed, he came across hundreds of pornographic images. The
store clerk testified that some of the images were of young girls. Concerned about what
he had seen, the store clerk surreptitiously asked a coworker to assist Diaz and confirm
whether he also saw child pornography on Diaz’s phone. The second clerk did so, and
they notified the store manager, who called the police. Two officers responded to the call.
1/7
25

Appendix B
19-40430.95

Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 2 of 7

The store employees identified Diaz to the officers, and as soon as Diaz purchased
his photos, Officer Phillip Peterson approached him. Footage from Officer Peterson’s
body camera shows that he told Diaz about the allegation that he had photos of child
pornography. Diaz silently handed the officer his printed photos. Officer Peterson
confirmed that they were not pornographic images.
While Officer Jared Beam waited with Diaz, Officer Peterson privately questioned
the store clerks and the manager who reported the incident. The first store clerk reported
“2,000 pictures of porn” on Diaz’s phone and some with naked girls. He described the
girls as “14 or 15” years old and “small.”

He reiterated that the photos were all

pornographic. The manager stated that he was told by the second clerk that there were
men in the photos. The second clerk then walked in and confirmed that he saw photos of
“younger, younger” girls in Diaz’s phone and “you could tell they looked young.”
As the clerks were describing the photos, Officer Peterson contacted dispatch and
ran a warrant search on Diaz. Dispatch reported back, “Subject is showing to be a
registered sex offender out of Texas, there’ll be no other 29’s. Clear.”1 He walked back
to Diaz and handcuffed him.
While walking Diaz to the police car and without issuing any Miranda warnings,
Officer Peterson explained to him that he had a warrant for his arrest. And they were
“going to file and put a hold on his phone for the detectives to look through, so if there’s

1

A “29” is a warrant. Officer Peterson testified that he interpreted the dispatcher’s response to mean that Diaz had a
warrant for his arrest, and he assumed it was a municipal warrant because dispatchers do not usually provide other
information for municipal warrants. A later search did not reveal a municipal warrant.

2/7
26
19-40430.96

Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 3 of 7

anything in there we need to know about, just let us know now.” Diaz admitted that he
had pornography on his phone. When asked if it was child pornography, Diaz said yes.
Diaz asked what type of warrant he had and Officer Peterson replied, “a municipal
court warrant.” Conferring with Officer Beam about the municipal warrant, Officer
Peterson said, “we’ll hook him up with that.” Diaz was then transported to the Retama
Public Library, the location of the Internet Crimes Against Children (ICAC) unit at the
time. Diaz met with Detectives Alicia Escobar and Rob Richey. After receiving his
Miranda warnings, Diaz signed a statement waiving his rights. Diaz withheld consent to
search his phone, but confessed that it contained about 40 to 50 images and one video of
child pornography. Diaz unlocked his phone and showed the detectives his phone’s
photo gallery. D.E. 26, p. 17. Based on their training and experience, the detectives
believed that the gallery contained child pornography.
The detectives arrested Diaz for possession of child pornography.

A search

warrant confirmed that Diaz had child pornography on his phone and he had sent one of
the photos through a messaging app.

Arguing that he was arrested at the Walgreens

without a warrant or probable cause, Diaz now seeks to suppress all evidence obtained
from his search and seizure as fruit of the poisonous tree.
ANALYSIS
A. Probable Cause
Under the Fourth Amendment, a warrantless arrest must be supported by probable
cause. Maryland v. Pringle, 540 U.S. 366, 370 (2003) (citing United States v. Watson,
423 U.S. 411, 424 (1976)). “Probable cause for a warrantless arrest exists when the
3/7
27
19-40430.97

Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 4 of 7

totality of facts and circumstances within a police officer's knowledge at the moment of
arrest are sufficient for a reasonable person to conclude that the suspect had committed or
was committing an offense.” United States v. Garcia, 179 F.3d 265, 268 (5th Cir. 1999)
(citing United States v. Wadley, 59 F.3d 510, 512 (5th Cir. 1995)). The information
obtained to establish probable cause must be reasonably trustworthy.

United States v.

Johnson, 445 F.3d 793, 796 (5th Cir. 2006) (citing Beck v. Ohio, 379 U.S. 89, 91 (1964)).
Diaz argues that Officer Peterson lacked probable cause to arrest him for
possession of child pornography and unlawfully arrested him based on a false belief that
Diaz had a warrant. Because Officer Peterson had probable cause to arrest Diaz based on
the possession of child pornography, the misunderstanding about an outstanding arrest
warrant is superfluous. At the time of the arrest, Officer Peterson knew of the following
facts: two store clerks had seen naked photos of young girls on Diaz’s phone, the clerks
identified Diaz as the suspect, and Diaz was a registered sex offender. The store clerks
had viewed the photos on Diaz’s phone separately and both confirmed that the photos
displayed noticeably young, naked girls.
Diaz argues that Officer Peterson had no more than a bare suspicion that Diaz
possessed child pornography, because the statements of the eyewitnesses are insufficient
to support the belief that the pictures of the naked girls were indeed pornographic. The
Court disagrees. Officer Peterson had no reason to question the credibility of the two
store clerks or believe they had inaccurately described the photos.
The Government cites to United States v. Burbridge, 252 F.3d 775 (5th Cir. 2001),
for the proposition that credible eyewitness testimony can establish probable cause. In
4/7
28
19-40430.98

Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 5 of 7

Burbridge, a police officer pulled over a suspect solely based on a 911 phone call made
by a couple. Id. at 777. The husband and wife had seen the suspect carry a gun in a store
parking lot, followed him in their car, and stayed on the phone with the dispatcher until
the officer pulled over the suspect. Id. Only after the suspect was handcuffed did the
police officer discover a pistol in the suspect’s motorcycle. Id. The Fifth Circuit found
that the eyewitness accounts and their identification of the suspect before the arrest
provided the officer with probable cause that the suspect committed the crime. Id. at 778.
Here, the store clerks positively identified Diaz to Officer Peterson. Diaz had not
left the store before the officers arrived. Each store clerk told Officer Peterson what they
had seen, and it was consistent with what they had told their manager. The second clerk
was not present when Officer Peterson spoke to the first clerk, but his recollection
corroborated the first statement. Officer Peterson had sufficient information to believe
there was probable cause to arrest Diaz for possession of child pornography.
The Court holds that Diaz’s arrest by Officer Peterson was supported by probable
cause and did not violate Diaz’s Fourth Amendment rights.
B. Admissibility of Evidence
Finding that Diaz’s arrest was lawful, the Court turns to whether the confession
Diaz made to the detectives at the ICAC unit is admissible.2 A confession made by a
suspect under arrest may be suppressed if the police officer fails to first administer
Miranda warnings.

Oregon v. Elstad, 470 U.S. 298, 309 (1985); United States v.

2

The Government agrees not to use the unmirandized confession made by Diaz at the Walgreens. The Court thus
focuses the analysis on the statements made after Diaz received his Miranda warnings from the detectives.

5/7
29
19-40430.99

Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 6 of 7

Courtney, 463 F.3d 333, 336 (5th Cir. 2006). However, “a subsequent administration of
Miranda warnings to a suspect who has given a voluntary but unwarned statement
ordinarily should suffice to remove the conditions that precluded admission of the earlier
statement.” Courtney, 463 F.3d at 338 (quoting Elstad, 470 U.S. at 314)). A postwarning confession is suppressed, however, if the officer engaged in a two-step strategy
to coerce or improperly obtain the confession from the suspect. Missouri v. Seibert, 542
U.S. 600, 610-11 (2004). An interrogating officer employs the two-step strategy by first
deliberately withholding Miranda warnings until a suspect confesses. Id. at 610-11. The
officer then uses the confession against the suspect to obtain a post-warning confession.
Id. at 611.
If there is no two-step strategy, then the question turns to whether the postwarning statement was made voluntarily. United States v. Lim, 897 F.3d 673, 692 (5th
Cir. 2018) (finding that a post-warning statement was voluntary when the suspect
confessed but then later invoked his right to remain silent). The court must examine the
surrounding circumstances and the entire course of police conduct with respect to the
suspect in determining whether the second statement was voluntarily made. United
States v. Nunez-Sanchez, 478 F.3d 663, 669 (5th Cir. 2007) (internal quotation marks and
citation omitted).
There is no evidence that Officer Peterson used any two-step strategy to coerce
Diaz to confess. Although Diaz was handcuffed at the time, the video recording shows
that Officer Peterson calmly asked Diaz in a conversational tone about the contents of his
phone. Later, the detectives read Diaz his Miranda rights and he waived each right in a
6/7
30
19-40430.100

Case 2:18-cr-00460 Document 28 Filed on 10/16/18 in TXSD Page 7 of 7

signed statement. Detective Escobar testified that she was not aware of Diaz’s first
confession when she interviewed him.

Therefore, she did not use his pre-warning

confession against him. Further, Diaz felt comfortable enough to invoke his rights and
deny consent for the detectives to search his phone. But, he still proceeded to make
incriminating statements. Diaz’s post-warning statements were voluntary and are not
entitled to suppression.
Because Officer Peterson had probable cause to arrest Diaz based on possession of
child pornography, Diaz’s initial arrest was lawful. The Government has also met its
burden to show that Diaz’s waiver of his Miranda rights was voluntary. Accordingly, the
post-warning statements and the photos are admissible.
CONCLUSION
For the reasons set forth above, Defendant Manuel Diaz’s motion to suppress
(D.E. 17) is DENIED.
ORDERED this 16th day of October, 2018.
___________________________________
NELVA GONZALES RAMOS
UNITED STATES DISTRICT JUDGE

7/7
31
19-40430.101

